No. 19-575
IN THE SUPREME COURT OF THE UNITED STATES
CHARTER COMMUNICATIONS, INC., ET AL.,
v.
STEVE GALLION, ET AL.,

Petitioners,

Respondents.

CERTIFICATE OF WORD COUNT
As required by Supreme Court Rule 33.1(h), I certify that the accompanying
Respondent Steve Gallion’s Brief in Opposition contains 6,751 words, excluding the
parts of the document that are exempted by Supreme Court Rule 33.1(d).
Executed on December 9, 2019.

SCOTT L. NELSON
PUBLIC CITIZEN LITIGATION GROUP
1600 20th Street NW
Washington, DC 20009
202-588-1000

